                     U.S. DEPARTMENT OF ENERGY
                    OFFICE OF INSPECTOR GENERAL




      AUDIT OF WORK FORCE RESTRUCTURING UNDER SECTION 3161

            OF THE NATIONAL DEFENSE AUTHORIZATION ACT




The Office of Inspector General wants to make the distribution
of its reports as customer friendly and cost effective as
possible. Therefore, this report will be available
electronically through the Internet five to seven days after
publication at the following alternative addresses:

            Department of Energy Headquarters Gopher
                        gopher.hr.doe.gov

         Department of Energy Headquarters Anonymous FTP
                       vm1.hqadmin.doe.gov

  Department of Energy Human Resources and Administration Home
                              Page
               http://www.hr.doe.gov/refshelf.html

Your comments would be appreciated and can be provided on
the Customer Response Form attached to the report.

              This report can be obtained from the
                    U.S. Department of Energy
         Office of Scientific and Technical Information
                           P.O. Box 62
                   Oak Ridge, Tennessee 37831




Report Number:   WR-B-97-05    Western Regional Audit Office
Date of Issue:   May 6, 1997   Albuquerque, New Mexico 87185

      AUDIT OF WORK FORCE RESTRUCTURING UNDER SECTION 3161
            OF THE NATIONAL DEFENSE AUTHORIZATION ACT




                         TABLE OF CONTENTS


                                                            Page
SUMMARY.................................................      1

PART I -     APPROACH AND OVERVIEW.........................   2

             Introduction..................................   2

             Scope and Methodology.........................   2

             Background....................................   3

             Observations and Conclusions..................   3

PART II - FINDING AND RECOMMENDATIONS...................      4

             Educational Assistance........................   4

PART III -      MANAGEMENT AND AUDITOR COMMENTS............   8

PART IV -       APPENDIX...................................   9
                    U.S. DEPARTMENT OF ENERGY
                   OFFICE OF INSPECTOR GENERAL
                    OFFICE OF AUDIT SERVICES
                  WESTERN REGIONAL AUDIT OFFICE

      AUDIT OF WORK FORCE RESTRUCTURING UNDER SECTION 3161
            OF THE NATIONAL DEFENSE AUTHORIZATION ACT

Audit Report Number:   WR-B-97-05       May 6, 1997

                              SUMMARY

      As authorized by the National Defense Authorization Act for
Fiscal Year 1993, Department of Energy (Department) policy is to
provide educational assistance to terminated contractor employees
who were impacted by the Department's downsizing. A terminated
employee is anyone who voluntarily or involuntarily departs due
to a reduction in employment under a Departmental restructuring
plan. The objectives of the audit were to determine if the
Department provided (1) reasonable means for terminated
contractor employees to obtain training to qualify for new
employment and (2) reasonable compensation to southern Nevada for
any impact the Department s downsizing had on the community.

     The audit showed that training records maintained for
terminated employees by management and operating (M&O)
contractors were not accurate and that, as a result, contractors
incurred questionable costs. The questionable costs consisted of
duplicate payments, payments greater than the invoiced amount,
and payments for classes employees never took or failed to
complete. Additionally, other record keeping errors were made in
posting individual training activities to employee records. This
occurred because only limited controls were established and many
of the established controls were not followed. As a result,
questionable costs of at least $130,000 were incurred.

     We recommended that the Manager, Nevada Operations Office,
instruct the contractors to review all terminated employee
training files to reconcile the payment data with the training
records, verify the data with the employee, and make appropriate
adjustments to the records; recover all erroneous payments;
document the administrative practices and procedures used to
manage employee assistance; and reconcile the various training
records used to track educational assistance on a regular basis.




                                          ____(Signed)__________
                                          Office of Inspector General


                              PART I

                       APPROACH AND OVERVIEW
INTRODUCTION

     The Nevada Test Site became the nation's Continental Nuclear
Weapons Test Site (Test Site) on January 11, 1951. Nuclear
testing continued at the Test Site until October 2, 1992, when
the President's declared nuclear testing moratorium went into
effect. The Presidential decision also stated that the Test Site
would maintain a readiness to test within six months through
Fiscal Year 1995 and maintain the ability to start testing within
two or three years after Fiscal Year 1995. This change in
mission, coupled with the Department's downsizing and the
consolidation of three M&O contractors into one, required that a
reduction in staffing, either voluntary or involuntary, be
accomplished. In October 1992, there were approximately 8,000
M&O contractor employees. As of July 1996, this number had been
reduced to about 2,900. Therefore, in less than four years,
approximately 5,100 employees left the employment of Nevada's M&O
contractors.

     The purpose of the audit was to determine if the Department
provided (1) reasonable means for terminated contractor employees
to obtain training to qualify for new employment and (2)
reasonable compensation to southern Nevada for any impact the
Department's downsizing had on the community.

SCOPE AND METHODOLOGY

     The audit was performed from June 1996 through September
1996 at the Department's Nevada Operations Office (Nevada),
Wackenhut Services, Inc. (Wackenhut), and at Bechtel Nevada
Corporation (Bechtel) in Las Vegas, Nevada. The period of the
audit covered October 1, 1992 through July 31, 1996. Our audit
work included a review of applicable Federal laws and regulations
related to work force restructuring. In addition, we reviewed
related training files, accounting records, and contacted
employees to verify the training they had taken.

     To accomplish the audit, we selected a random statistical
sample from the 729 employees that used educational assistance.
We used a statistical sampling program to select our random
statistical sample. The computer program calculated that 86
employees' training files had to be reviewed in order to project
the results with a 95 percent confidence level. We also reviewed
the community redevelopment program established to assist
communities impacted by Nevada's downsizing.

     The audit was performed according to generally accepted
Government Auditing Standards for performance audits and included
tests of internal controls and compliance with laws and
regulations to the extent necessary to satisfy the audit
objectives. Because the review was limited, it would not
necessarily have disclosed all internal control deficiencies that
may have existed at the time of our audit. We did not rely
extensively on computer-processed data and, therefore, did not fully
examine the reliability of that data. On December 19, 1996, we
discussed the audit results with the Deputy Assistant Manager for
Business and Financial Services.

BACKGROUND

     In October 1992, Public Law 102-484, National Defense
Authorization Act for Fiscal Year 1993, was passed. Section
3161, Department of Energy Defense Nuclear Facilities Work Force
Restructuring Plan, authorized the Department to give incentives
that would reduce employment at all nuclear weapons sites.
Nevada, through its work force restructuring plans for 1993
through 1995, offered up to $10,000 in educational assistance to
employees. Employees could use this assistance to obtain
necessary training to obtain private sector employment.

     Through December 31, 1995, over 2,700 contractor employees
had accepted voluntary or involuntary separation and, as of July
1996, 729 of the separated employees had applied for and taken
advantage of the educational assistance. The 729 employees had
taken training valued at $2.5 million through July 1996. In
January 1996, Bechtel became the M&O contractor and is now
responsible for administering the educational assistance for
terminated employees of the previous contractors.

OBSERVATIONS AND CONCLUSIONS

     Part II of this report discusses problems associated with
Nevada s educational assistance program. We also noted that
southern Nevada s Community Reuse Organization (CRO), a group of
business and civic leaders, had requested a $20 million grant to
lessen the financial impact of the test site downsizing.
Redevelopment programs are authorized, under section 3161, for
local communities impacted by Department downsizing. In 1996,
CRO requested, and was awarded, a $5 million grant to implement
various programs to stimulate economic growth. The request also
stated that CRO needed $5 million per year for the next 3 years.
We questioned the reasonableness of grants totaling $20 million
when the economy of southern Nevada is among the fastest growing
in the nation -- new housing permits increased from 17,500 in
1991 to 30,600 in 1996; unemployment dropped from 7.2 percent in
1993 to the current level of 5.5 percent; population increased
from 800,000 in 1991 to over 1.1 million in 1996; and the work
force has increased from 400,000 in 1991 to about 500,000 in
1996. We expressed our concerns to the Director, Office of
Worker and Community Transition, in Washington, DC. The Director
responded that the Department did not intend to fund the
additional $15 million; therefore, further audit work in this
area was curtailed.


                               PART II

                   FINDING AND RECOMMENDATIONS

                     Educational Assistance

FINDING
     It is Federal, Department, and Nevada policy to provide
educational assistance, generally in the form of classroom
training, to any employee who voluntarily or involuntarily
departs the work force due to restructuring. The audit
disclosed, however, that contractors paid for training classes
that employees had not requested, made duplicate payments to
vendors, overpaid vendors, and paid for courses that employees
did not complete. Additionally, the contractors made other
record keeping errors including posting transactions to the wrong
employee accounts and not posting refunds properly. This
occurred because an inadequate set of internal controls had been
established and those that were in place were not followed. As a
result, Department contractors erroneously paid at least $130,000
for employee educational assistance.

RECOMMENDATIONS

     We recommend that the Manager, Nevada Operations Office,
instruct the General Managers, Bechtel Nevada Corporation and
Wackenhut Services, Inc. to:

          1.   review all terminated employees' training files
               to reconcile the payment data with the training
               records, verify the data with the employee, and
               make appropriate adjustments;

          2.   recover all erroneous payments;

          3.   document the administrative practices and
               procedures used to manage employee
               assistance; and,

          4.   reconcile the various training records used to
               track educational assistance on a regular
               basis.

MANAGEMENT REACTION

     Management concurred with all the recommendations.
Management's comments are detailed in Part III.

                        DETAILS OF FINDING

     It is Federal and Department policy to provide educational
assistance to displaced employees. Public Law 102-484, National
Defense Authorization Act for Fiscal Year 1993, specifically
section 3161, Department of Energy Defense Nuclear Facilities
Work Force Restructuring Plan, requires the Department to assist
employees to obtain training, education, and re-employment
opportunities. Department Order 3309.1A, Reductions in
Contractor Employment, requires M&O contractors to provide
training opportunities for employees impacted by work force
reductions. Further, the Department's "Interim Planning Guidance
for Contractor Work Force Restructuring" establishes that
educational assistance be considered for employees who are
voluntarily or involuntarily separated from contractor
employment. The guidance recommends that tuition assistance and
other reasonable and necessary education expenses, such as books,
be limited to not more than $10,000 per employee.

     To implement the requirements, Nevada's M&O contractors
established their own guidelines. These guidelines were to
ensure that educational assistance money was spent appropriately
on training and that payments were for courses actually attended
and completed by the employees.

TRAINING PAYMENTS AND RECORDS

     The contractors, however, did not ensure that employee
training money was spent appropriately or that the training
records were maintained accurately. A statistical sample of 86
employees' files disclosed that 32 contained errors. In 18
instances, courses were paid for that employees had either not
taken or completed; duplicate payments were made for courses; or
other errors occurred (see Appendix). Finally, in 14 instances
the files contained record keeping errors, such as double posting
of training courses and posting training courses to the wrong
employee records.

Payments Made For Courses Not Taken Or Completed

     The audit showed that the M&O contractors made payments for
five courses in which employees had not enrolled. For example,
one employee visited a school to inquire about the different
types of training and the cost of the training. The school
billed and Bechtel subsequently paid approximately $8,000 for a
series of classes for this individual. The employee told us,
however, that she did not sign a contract or any other documents
to enroll in any classes offered by the school and that she told
the Bechtel training coordinator she was not taking any classes.
However, Bechtel's training coordinator approved the school's
invoice for payment. We were unable to locate a signed contract
with the school or a signed training request form in the training
file to support the $8,000 payment.

     In another instance, employees did not complete the training
courses they began. For example, a Wackenhut employee signed up
for an eleven-class course, but only completed two of the classes
because he decided the course would not meet his career objectives.
The school billed Wackenhut approximately $9,900 for the series of
classes, and the contractor followed the school's payment policy and
submitted the full payment before the first class began. The employee
sent completion notices to the training coordinator, as required, for
the first two classes but never notified the contractor that he dropped
the remaining nine classes, even though he was required to, until he
received our letter (September 10, 1996) requesting confirmation of the
training taken.

Duplicate Payments

     The contractors also made duplicate payments in at least
three instances. For example, the training coordinator completed
a request for payment based upon an employee s application for
training and sent the request to accounts payable for processing.
The accounts payable section did not process the request
immediately. In the meantime, the school submitted an invoice
for $695 requesting payment for the course. The training
coordinator submitted a second request for payment based on the
school s invoice. Both requests for payment were processed and
paid. We contacted the employee to determine if he had taken the
course only one time. The employee stated that he had only taken
the course one time.

Administrative Records

     Fourteen files contained record keeping errors that could
impact the future educational assistance of the employees.
During the audit, we found examples of double posting of training
courses to employee records, posting of payments to incorrect
employee accounts, and incorrect posting of refunds to employee
accounts. Any of these errors could have impacted how much
additional training would be available to employees. When we
brought these errors to the attention of the M&O contractor,
appropriate corrections were made.

INTERNAL CONTROLS

     These problems occurred because only limited internal
controls had been established over the educational assistance
program, and those that were in place were not always followed.
For instance, files were not well maintained; responsibilities
were unclear; and communications between training coordinators
and employees were not well documented.

     Management had not identified what must be included in an
employee s training file. As a result, some files contained
duplicate copies of training documentation while other files had
no or limited documentation to support the training taken.
Telephone conversations between the employee and the training
coordinator were not always documented in the file. This was
crucial because we identified four cases in which employees had
informed the training coordinator that training was not going to
be taken, yet the courses were paid for.

     Additionally, neither the M&O s training office nor its
finance office had one individual responsible for the employee
training records. Initially, the M&O contractor divided the
responsibility of training coordinator between two employees;
however, each person approached the assignment differently and
documented their files differently. In July 1996, the contractor
assigned the training coordinator's responsibility to one
individual. This individual has taken action to correct the
problems found during the audit. This scenario was mirrored in
the finance office, and the current individual in charge is
working to correct additional problems identified in the audit
report.

     Finally, although the contractors procedures required that
the employee submit a signed application for training, we found
that contractors were allowing telephone conversations between
the employee and the training coordinator to serve as application
for training and did not require the employee to follow up on the
call with a signed application. This permitted the training
coordinators to submit requests for payments with only their
signature on the document. The lack of an employee signature on
the document provides no assurance that the employee had
requested the training or had any intention of taking the
training.

QUESTIONED COSTS

     As a result of inadequate internal controls, Bechtel and its
predecessor contractors erroneously paid approximately $38,000
for educational assistance. Based on our statistical sample, we
are 95 percent confident that Department contractors erroneously
paid at least $130,000 for employee educational assistance. In
addition, other administrative errors can result in employees not
receiving their entitled training.

                             PART III

                   MANAGEMENT AND AUDITOR COMMENTS

     The Assistant Manager for Business and Financial Services,
Nevada Operations Office concurred with the finding and
recommendations. Management's response to each recommendation
and corrective action plan are addressed below.

Recommendations

     Management Comments. Management concurred with
recommendation 1 and directed the contractors to reconcile all
terminated employee training files to the payment data, verify
the information with the employee, and make appropriate
adjustments.

     Auditor Comments.   Management's action is responsive to the
recommendation.

     Management Comments. Management concurred with
recommendation 2 and directed the contractors to recover all
erroneous payments.

     Auditor Comments.   Management's action is responsive to the
recommendation.

     Management Comments. Management concurred with
recommendation 3 and directed Bechtel Nevada Corporation to
document the administrative practices and procedures used to
manage employee assistance. Wackenhut Services Nevada s
procedures were not in question.

     Auditor Comments.   Management's action is responsive to the
recommendation.

  Management Comments. Management concurred with recommendation
4 and directed the contractors to reconcile the various
training records used to track educational assistance on a
regular basis.

       Auditor Comments.           Management's action is responsive to
the recommendation.


                                      PART IV

                                     APPENDIX

 Sample Items With Erroneous Payments or Charges to the
               3161 Account

               TOTAL
 SAMPLE      ERRONEOUS
 NUMBER       PAYMENTS         COMMENTS

       2      $      60        Overpayment
       6            150        Matriculation fee billed incorrectly
      10            285        Duplicate billing and payment
      19             15        Regular training
      22            695        Duplicate payment
      24            900        Training not taken; institute billed and was
                               paid for the course
      25            265        Student did not complete course
      28          8,305        Training not taken; institute billed and was
                               paid for the course
      31          7,955        Student did not complete course
      33          3,365        Discount offered but not given; training
                               institute refunded $2,100
       *            250        Duplicate billing and payment
       *            280        Regular training
      35            370        Regular training
      37             55        Regular training
      39          7,540        Training not taken; institute billed and was
                               paid for the course
      43            145        Regular training
      50            630        Student enrolled but never took the class
      55          1,980        Cost of software that the student was to
                               sell
      60            495        Student did not complete
      76          4,595        Training not taken; institute billed and was
                               paid for the course

 TOTALS      $38,335


All figures are rounded to the nearest $5.

*Employee File Number 33 contained three different types of
errors. The errors are listed separately but are counted as one.


Report No.        WR-B-97-05


                           CUSTOMER RESPONSE FORM
The Office of Inspector General has a continuing interest in
improving the usefulness of its products. We wish to make
our reports as responsive as possible to our customers'
requirements, and therefore ask that you consider sharing
your thoughts with us. On the back of this form, you may
suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions
if they are applicable to you:

1.   What additional background information about the
     selection, scheduling, scope, or procedures of the
     audit or inspection would have been helpful to the
     reader in understanding this report?

2.   What additional information related to findings and
     recommendations could have been included in this report
     to assist management in implementing corrective actions?

3.   What format, stylistic, or organizational changes
     might have made this report's overall message more clear
     to the reader?

4.   What additional actions could the Office of Inspector
     General have taken on the issues discussed in this
     report which would have been helpful?

Please include your name and telephone number so that we may
contact you should we have any questions about your
comments.

Name __________________________ Date______________________

Telephone _______________________ Organization_____________

When you have completed this form, you may telefax it to the
Office of Inspector General at (202) 586-0948, or you may
mail it to:

      Office of Inspector General (IG-1)
      U.S. Department of Energy
      Washington, D.C. 20585
      ATTN: Customer Relations

If you wish to discuss this report or your comments with a
staff member of the Office of Inspector General, please
contact Wilma Slaughter at (202) 586-1924.
